<html>
<title> - [H.A.S.C. No. 112-33]IMPROVING THE READINESS OF U.S. FORCES THROUGH MILITARY JOINTNESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-33]

   IMPROVING THE READINESS OF U.S. FORCES THROUGH MILITARY JOINTNESS

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 31, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                      U.S. GOVERNMENT PRINTING OFFICE
  65-804                  WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4c2b3c230c2f393f382429203c622f232162">[email&#160;protected]</a>  






                       SUBCOMMITTEE ON READINESS

                  J. RANDY FORBES, Virginia, Chairman
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     SILVESTRE REYES, Texas
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
FRANK A. LoBIONDO, New Jersey        DAVE LOEBSACK, Iowa
CHRIS GIBSON, New York               GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             LARRY KISSELL, North Carolina
BOBBY SCHILLING, Illinois            BILL OWENS, New York
JON RUNYAN, New Jersey               TIM RYAN, Ohio
TIM GRIFFIN, Arkansas                COLLEEN HANABUSA, Hawaii
STEVEN PALAZZO, Mississippi
MARTHA ROBY, Alabama
                Cathy Garman, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                   Christine Wagner, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, March 31, 2011, Improving the Readiness of U.S. Forces 
  Through Military Jointness.....................................     1

Appendix:

Thursday, March 31, 2011.........................................    33
                              ----------                              

                        THURSDAY, MARCH 31, 2011
   IMPROVING THE READINESS OF U.S. FORCES THROUGH MILITARY JOINTNESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     3
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Gortney, VADM William E., USN, Director, Joint Staff, Joint 
  Chiefs of Staff................................................     6
Krepinevich, Dr. Andrew F., President, Center for Strategic and 
  Budgetary Assessments..........................................     6
Odierno, GEN Ray, USA, Commander, U.S. Joint Forces Command......     5

                                APPENDIX

Prepared Statements:

    Forbes, Hon. J. Randy........................................    37
    Krepinevich, Dr. Andrew F....................................    48
    Odierno, GEN Ray.............................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Forbes...................................................    67
 
   IMPROVING THE READINESS OF U.S. FORCES THROUGH MILITARY JOINTNESS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, March 31, 2011.
    The subcommittee met, pursuant to call, at 3:00 p.m. in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Forbes. We want to welcome all of our members and our 
distinguished panel of experts to today's hearing that will 
focus on how we are into progressing toward improvements in the 
readiness of our forces through military jointness.
    I want to begin by apologizing to our panel for having the 
votes come up the way they did and a little bit of delay. And 
several of our members, we have got a couple of called meetings 
for some of the freshmen, so they may be coming in and out. So 
we appreciate your understanding of that as they do.
    This topic is particularly relevant with the pending 
closure of the Joint Forces Command or JFCOM. Ironically, the 
impetus for JFCOM was that landmark legislation on jointness, 
Goldwater-Nichols. Let me first take a step back in history and 
a special message to Congress in 1958. President Dwight D. 
Eisenhower stated that separate ground, sea and air warfare is 
gone forever. If ever again, we should be involved in war, we 
will fight it in all elements with all Services as one, single 
concentrated effort.
    However, President Eisenhower's vision was not fully 
realized until the passage of Goldwater-Nichols in 1986. The 
operations in Iraq and Afghanistan have shown that the U.S. 
military indeed has made significant gains in joint operations, 
training and doctrine. However, there are still areas impacting 
the readiness of our forces that need to be addressed.
    We still must develop jointness in the way we communicate, 
procure our weapons systems and in our logistics processes and 
information systems. That once would have been the ongoing role 
of JFCOM. In announcing the closure of JFCOM, Secretary Gates 
said the U.S. military has largely embraced jointness as a 
matter of culture and practice, although we must always remain 
vigilant against backsliding on this front.
    In reality, it is my contention that we cannot simply focus 
on what we have achieved to date and try to avoid a backslide, 
but rather, we must continue to advance joint concepts in terms 
of doctrine, training and development of strategies and 
tactics, since each scenario we face in the future will call 
for joint operations but potentially differing responses.
    For example, the growing military power of China and its 
potential threat to the Asia/Pacific region would call for a 
different joint response from U.S. military forces, possibly 
more focused on an air-sea operation than the current CENTCOM 
[U.S. Central Command] operations which primarily are land-
based.
    I would ask our witnesses their view on how we can be 
assured this forward look at jointness will happen without a 
body that has the authority to force that on the Services. The 
Joint Staff has played the role of principal military adviser 
to our senior civilian leadership. Even if they develop the 
necessary concepts to further jointness, how will they be able 
to press Services into compliance?
    In a recent speech at the Air Force Academy, Secretary 
Gates said it is easier to be joint and talk joint when there 
is money to go around and a war to be won. He said, it is much 
harder to do when tough choices have to be made within and 
between the military Services, between what is ideal from a 
particular Service perspective and what will get the job done, 
taking into account broader priorities and considerations.
    I agree with Secretary Gates in this regard, resistant 
bureaucracies exist within every part of the executive branch, 
and the Service departments within the Pentagon are no 
different.
    Another critical readiness factor is that of the role of 
Joint Force provider. Jointness dictates that the Services 
operate within their core competencies and seek the expertise 
of the Service whose skills line of particular competency, 
including training. In the new construct, it is unclear who 
will take on this responsibility, but in order to truly promote 
jointness, it cannot be given to one particular military 
Service.
    Finally, the operations with our NATO [North Atlantic 
Treaty Organization] allies pose another concern. An example of 
their importance to our security interest is being reinforced 
even as we sit here with the operations over Libya, which this 
committee heard about this morning.
    JFCOM provided several venues in which U.S. and allied 
forces could interact. That dynamic cannot help but change.
    Indeed, French Air Force General Stephane Abrial, Supreme 
Allied Commander for Transformation, or ACT, in discussing the 
NATO role after the closure of JFCOM, told reporters that ACT 
has started looking at how we will replug into this much more 
distributed system.
    Joining us today to discuss these issues are three 
distinguished individuals: General Raymond Odierno, Commander 
of the U.S. Joint Forces Command. General Odierno most recently 
served as Commanding General for the Multi-National Force--
Iraq, working jointly with our allies. He also has served in 
other senior joint positions in the Pentagon. These assignments 
have more than prepared him for ensuring that the military's 
focus remains on jointness, even as JFCOM is disestablished.
    Vice Admiral William E. Gortney, Director of the Joint 
Staff. While primarily serving in senior Navy commands 
throughout his career, Admiral Gortney has stated that 
Goldwater-Nichols substantially helped his career. Now as 
director of the Joint Staff, Admiral Gortney is uniquely 
positioned to reinforce his personal commitment to jointness.
    Dr. Andrew F. Krepinevich, President, Center for Strategic 
and Budgetary Assessments. Dr. Krepinevich is a well-known 
military expert and currently serves on the Joint Forces 
Command's Transformational Advisory Board. He has been involved 
with JFCOM since its beginning.
    Gentlemen, we thank you all for being here.
    I now recognize my good friend, the ranking member, Ms. 
Bordallo, for any remarks she may have.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 37. ]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman. I know 
that the topic of today's hearing is very important to our 
chairman, so I will keep my remarks rather brief.
    First, I would like to welcome Admiral Gortney. Thank you.
    And General Odierno, thank you for testifying.
    And also Dr. Krepinevich. Is that correct?
    Dr. Krepinevich. Krepinevich.
    Ms. Bordallo. And I want to thank the General and the 
Admiral for their visit in my office yesterday.
    General, as you know and I must mention how proud I am of 
our Guam reservists and our National Guardsmen who served with 
you in Iraq. And thank you for taking good care of my men and 
women when they were serving there. We are all very proud of 
them back home.
    Today's hearing focuses on ensuring that jointness in the 
U.S. military operation continues and is enhanced to promote 
our readiness to respond to threats to national security.
    The passage of the Goldwater-Nichols Act in 1986 was a 
major step forward in the reorganization of the Department of 
Defense to enhance operational synergies across all the 
Services. The First Gulf War proved that Goldwater-Nichols had 
made substantial improvements in joint operations. And to this 
day, the U.S. military continues to be the best prepared force 
to fight jointly.
    The total force concept of jointness is proven. It works, 
and it makes our military more ready and more capable. As we 
look to the future, it is important for both the Congress and 
the Department of Defense to ensure that our military can 
operate effectively in a joint environment.
    We must find ways to maximize organizational efficiencies, 
and we must ensure that we maintain our focus on core joint 
strengths, such as training, doctrine, manpower sourcing and 
simulation.
    I look forward today to hearing from our witnesses on how 
they will continue to maintain the strength of our total force 
and what steps are being taken to improve joint training 
requirements.
    I have expressed concerns about training requirements in 
past readiness hearings, so I am interested in understanding 
what steps are being taken to ensure more consistency in 
training requirements across all the Services and how the Joint 
Staff would support Pacific Command in its efforts to address 
training in the Pacific as dictated in the Quadrennial Defense 
Review.
    So, again, Mr. Chairman and to the witnesses, I look 
forward to the testimony from our witnesses.
    Thank you.
    Mr. Forbes. Thank you for those remarks, Madeleine.
    As we discussed prior to the hearing, I ask unanimous 
consent that we dispense with the 5-minute rule for this 
hearing and depart from regular order so that members may ask 
questions during the course of the discussion. I think this 
will provide a roundtable type forum and will enhance the 
dialogue on these very important issues.
    Without objection, so ordered.
    Gentlemen, we appreciate you being here. I want to just 
take a moment and tell you that our format is a little bit 
different than some of the subcommittees. We have probably, I 
think, one of the most bipartisan committees in Congress. We 
work very well together, and so what we do is try to ask our 
questions in a little more logical framework than you might see 
in some other subcommittees.
    The other thing I want to do is tell you how much we 
appreciate you being here.
    General, you have got a lot of stars on your shoulder. They 
weren't given to you; we know that you earned those. And we 
just respect that service, and we respect what you have done 
for our country and for you being here.
    Admiral, we appreciate your service. And I know that you 
are kind of new to the hearing circuit, and so we hope you have 
a good experience today and thank you for being here.
    Dr. Krepinevich, we thank you so much for your contribution 
to jointness. And I don't do this very often, but I commend 
your book to anyone who wants to read it. It is just excellent, 
and I think it is a true eye-opener.
    The other thing I want to encourage you to do is, this is 
not a gotcha time or moment. If there is anything that you just 
left out that you want to come back in and do, take the time 
you need to do it.
    One of the witnesses has completed something and you want 
to extrapolate on that, please feel free to do it. If you 
rethink something afterwards and you just want to come back or 
you didn't get all the time you need, let us know, and we want 
you to be able to do that.
    So thank you all for being here.
    And with that, General, we would love to have you start 
off.
    We are going to just, so you know for the record, we have 
taken all of your written remarks, and we make them a part of 
the record. Don't feel like you have to regurgitate them to us, 
but if it feels more comfortable to do it, we are going to 
leave that up to you. And if you would take about 5 minutes or 
so each, and then we will go into our questions.
    General.

STATEMENT OF GEN RAY ODIERNO, USA, COMMANDER, U.S. JOINT FORCES 
                            COMMAND

    General Odierno. Mr. Chairman, thank you.
    Ms. Bordallo, other distinguished members of the committee, 
thank you so much.
    I think it is an important topic we are here to discuss 
today. Obviously, readiness today and in the future of our 
Joint Force is key to us being successful in the future.
    I would just like to go back to my time in Iraq where, from 
2003, when I was a division commander, through my time as 
Multi-National Corps--Iraq Commander to Multi-National Force--
Iraq to U.S. Forces--Iraq, I got to personally witness as a 
joint commander the growth that we had in our joint and 
multinational operations. Whether it be from intelligence 
collection, whether it be from targeting, whether it be from 
Joint Staff operations, it increased exponentially.
    And I believe that is what the Secretary of Defense was 
talking about when this has become more routine. From 2003 and 
2011, our ability to establish and routinely conduct joint 
operations has become much more routine.
    I think we have witnessed that in Afghanistan and Iraq. We 
have witnessed that in Libya. We have witnessed that in the 
Pacific during the crisis in Japan, and we have witnessed it in 
Haiti and other places. So forming joint task forces, 
understanding the roles and capabilities of the Services, has 
significantly improved.
    That said, it is something that we must continue to look 
at, improve and have the processes in place so we can continue 
to modify and improve our Joint Force as we meet the many 
difficult challenges that we will face in the coming years. And 
I certainly recognize this as a former Joint Force commander.
    As I first got the Joint Forces Command, I had this in 
mind; when I originally looked at what Joint Forces Command was 
doing, what was it doing to support the combatant commanders, 
what was it doing to support the Services, what were the core 
functions that needed to remain, so we could, most importantly, 
not only sustain but improve our jointness in the future, and 
we identified some key core functions: One being, first and 
foremost, joint-enabled collective and individual training; 
second, the development of joint--continued development of 
joint concepts through lessons learned; third, the development 
of joint doctrine; and, finally, all of this underpinned by 
modeling, simulation and experimentation.
    And those are the core functions that will remain as we 
move forward and that will be the key for us in sustaining and 
continuing to improve our jointness.
    And, in fact, I believe, as we move forward, we are 
eliminating bureaucracy that was unnecessary and that I hope 
will streamline the process that will make us more responsive 
to the many complex challenges we have ahead. So I look forward 
to having a further discussion today about that.
    I appreciate your concerns, and I very much believe that 
this is an important conversation that we are having. So thank 
you very much, Mr. Chairman.
    [The prepared statement of General Odierno can be found in 
the Appendix on page 39. ]
    Mr. Forbes. Thank you, General.
    Admiral, thank you for being here and the mike is all 
yours.

  STATEMENT OF VADM WILLIAM E. GORTNEY, USN, DIRECTOR, JOINT 
                  STAFF, JOINT CHIEFS OF STAFF

    Admiral Gortney. Thank you, Chairman, Ms. Bordallo.
    Jointness is the philosophy that underpins the United 
States' strategy and operational application of the military. 
And today's senior military officers are products of Goldwater-
Nichols reform, and most service members have never experienced 
operations in anything but the joint environment.
    In fact, our young officers, 0-4 and below and senior 
enlisted E-7 and below, it is all they know, as they raised 
their right hand 10 years ago, volunteered to serve their 
Nation in time of war and fight in joint operations.
    As a director of the Joint Staff, I see the focus on 
jointness in our service members every single day, in the last 
10 years, 6 of the last 10 years overseas at the operational 
and tactical level in one of those capacities working for the 
General here as his maritime commander.
    The chairman, by law and policy and intent, is charged with 
maintaining jointness. He does this now, and he will continue 
to do it after JFCOM is disestablished. In order to do so, we 
are establishing a three-star J7 director on the Joint Staff 
being specifically charged with Joint Force development. And 
the pillars of Joint Force development were very well explained 
by the General here. J7 partners today with JFCOM in these 
endeavors and will execute them tomorrow in a flatter, more 
efficient, more responsive organization.
    In reality, this is less about a COCOM [combatant command] 
going away and more about DOD [the Department of Defense] 
figuring out a better way to perform joint oversight and 
ensuring joint readiness, thereby providing a better value for 
the American taxpayer, and I look forward to taking your 
questions, sir.
    Mr. Forbes. Thank you, Admiral.
    Doctor.

 STATEMENT OF DR. ANDREW F. KREPINEVICH, PRESIDENT, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman, thank you, 
Congresswoman Bordallo.
    My testimony really addresses three questions, first, why 
was Joint Forces Command created in the first place?
    I happened to be on the ground floor of its creation. Back 
in 1997, I was serving on the National Defense Panel. We were 
tasked to look out 15 or 20 years into the future to try and 
get a handle on what kind of security challenges we would 
confront, quite frankly, in the decade we are entering now.
    Our conclusion was that we were in for a period of 
disruptive change, that we would be facing new and very 
different kinds of security challenges. And as we did that, we 
looked back to the past to say, well, how did military 
organizations that are confronted with disruptive change, how 
do they successfully navigate that?
    And we found in many instances, it was through a period of 
deep thinking where they put some of their best thinkers to 
work on what General Odierno said is concept development, you 
know, what is a way to deal well this new problem, and then 
second, war games, more recently simulations, and then 
ultimately field exercises to test out those ideas, so that we 
were sure that we were buying, as sure as we could be, the 
right kind of equipment, developing the right kind of 
capabilities and so on.
    Our idea was that these operations, as you have said, Mr. 
Chairman, quoting President Eisenhower, were going to be 
inherently joint, so the Services individually could not come 
up with the answers or the solutions to these problems.
    And then, finally, the idea was there needed to be a senior 
officer that, in my terminology, spoke for the COCOM after 
next, the commander that would be in the field 5 to 8 to 10 
years into the future, because nobody really speaks for that 
person right now. We don't know who he is; he doesn't know who 
he is. So somebody has got to be there when we are setting the 
requirements for capabilities that, quite frankly, aren't going 
to be in place today but will only be in place over time when 
that commander has to take the responsibility for his or her 
particular command.
    I think that concern has been validated over time: 1997, we 
had some perception of what might be emerging. Now I think it 
is much clearer. We have the Chinese and the Iranians 
developing what we call anti-access/area denial capabilities 
that are designed to push us out of the western Pacific and the 
Persian Gulf.
    We have the diffusion of guided weaponry to the point where 
there are concerns that even nonstate entities, like Hezbollah, 
will get these weapons and create a new form of modern 
insurgency or irregular warfare; a situation where if Iran gets 
nuclear weapons, you will have an inherently unstable nuclear 
balance in the Middle East between Iran and Israel; concerns 
about Pakistan, who has four reactors, either in production or 
underway, to produce plutonium, to make far more nuclear 
weapons than they can absorb locally; the issue of prospective 
loss of assured access to space and cyber space. We have 
already seen the Chinese take out satellites at low-Earth 
orbit, and yet that is where we continue to put satellites into 
for the most part, and then the major issue of cyber space.
    You know, these are all presenting us with strategic 
problems or military problems that we need answers to, that the 
Defense Department and the President need answers to, to decide 
if, in fact, these problems are soluble; if so, what kinds of 
capabilities and doctrine we are going to need; or do we need 
to pursue an alternative strategy with all its implications for 
forces, force structure, doctrine and equipment?
    Now, my second question is, how well does Joint Forces 
Command accomplish this mission of representing the COCOM after 
next of looking into the future and helping us position 
ourselves to anticipate what is coming as opposed to react to 
it. My conclusion is, not particularly well.
    There have been a number of reasons for this. It hasn't 
been for a lack of hard-working people. It hasn't been for a 
lack of talented people.
    I think, certainly, one thing that has occurred is the 
consequences of two wars and the enormous demand signal that 
that has placed on the command, and the obvious and logical 
conclusion that you have got to support the war we have got 
but, again, the need to balance that with preparing for the 
future.
    Second, a resistance by the military Services. 
Prospectively, when you engage in this process of discovery and 
identification of new ways of conducting operations, ultimately 
you are going to create winners and losers, winners and losers 
among and within the Services, winners and losers among 
programs. And the Services jealously guard their program of 
record and their responsibility for setting requirements.
    Third, I think, is the lack of top cover. I don't think it 
was ever particularly well understood, either by a series of 
Defense Secretaries or in some cases even the Joint Forces 
Command commander, as to what exactly this all meant in terms 
of joint concept development and experimentation, and that is 
based on my conversations with a number of them.
    Then there was the fact that the commander of Joint Forces 
Command was never really involved in setting requirements, no 
membership on the Joint Requirements Oversight Council, no 
membership on the Defense Acquisition Board.
    Then there was the fact that even though typically these 
kinds of major changes in doctrine force structure take the 
better part of a decade, the commander of Joint Forces Command 
typically had a very short tenure, 2 years, 3 years, when, in 
fact, if the job was being done well, he probably needed two 
concurrent 3-year command tours.
    And, finally, the tendency in some cases to outsource 
thinking, the civilian support in the J9 shop almost became 
legendary, not only down there but up here. Again, a lot of 
good people, but history indicates that in concept development, 
you really need military professionals who are really expert in 
terms of strategy, development of operational concepts, and I 
don't think we ever got to that point with respect to J9.
    Third, is this mission still important? I would argue it is 
more important now than ever. I don't oppose the 
disestablishment of Joint Forces Command, but I definitely feel 
as though this mission cannot afford to be an orphan any 
longer, that it has got to be given serious consideration. 
Otherwise, I think we are going to be continuously surprised 
over the next 10 years of what our rivals and adversaries are 
doing to us rather than being well prepared for it, 
anticipating it and being in a position to deter aggression or 
coercion or respond effectively if that fails.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 48. ]
    Mr. Forbes. Thank you, Doctor. I am going to defer my 
questions until the end because I want to make sure our members 
get to ask all of theirs.
    And so I am going to turn now to my colleague, the ranking 
member, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Admiral, I have a question for you with regard to joint 
training. I understand that the Services have made significant 
gains in developing new training opportunities using modeling 
and simulation tools. Further, I know these advances in 
training techniques have contributed to our efforts to help 
train our coalition partners around the world.
    What is the next step for the Services to evolve further 
and share these cutting-edge training capabilities with each 
other in today's distributed environment? And the second part 
of the question is, how will the Joint Staff encourage the 
combatant commands and Services to fully utilize new 
technologies to meet current future training requirements?
    Admiral Gortney. Ma'am, I think the answer to your first 
question is that the Services are all finding that modeling and 
simulation are one of the best training values for the dollar 
spent. You can get, in particular areas, the best quality 
training that you can through a simulation. It does not fully 
replace live fire, say live fire training, large exercise, but 
any time that you can work the simulation piece in there at the 
right level for the right cost, it is a very good return on 
investment.
    And on the Joint Staff, we are going to continue to do 
that. Modeling and simulation is one thing that is one of the 
tasks that is not going away. With JFCOM's disestablishment, it 
will be using the same facility, but it will be reporting to 
the three-star on the J7.
    Ms. Bordallo. Thank you, Admiral.
    General.
    General Odierno. Ma'am, could I add something to that, 
please?
    Ms. Bordallo. Yes. General.
    General Odierno. What I would like to--your points are very 
good. And, in fact, we just finished the most complex modeling 
simulation exercise that we have done where we incorporated an 
exercise preparing units from Afghanistan. We included a German 
division out of Europe, a Marine division out of Camp Lejeune 
and an Army division out of Fort Hood, Texas, all virtually who 
are able to conduct an exercise by preparing themselves to go 
to Afghanistan. It was run by Joint Forces Command. It was 
completely joint and multinational in every way.
    Our capability to do that type of exercise is going to 
remain, in total, in Suffolk, Virginia, in the Joint War 
Fighting Center. The only difference now is it will report 
directly to the Joint Staff J7. We think that is key and then 
the modeling and concept and experimentation fees will be there 
together for the first time, instead of separate. And being 
together, we hope that that will facilitate more coordination 
to look at future challenges that we will have. That is the 
concept that we have put together for this.
    Ms. Bordallo. Thank you, General.
    I have a question for you, General or Admiral. Can either 
of you comment on the success of the implementation of the new 
Joint Officer Management Program and the joint qualification 
system? Has the opportunities to gain joint credit through 
experience yielded a greater number of joint qualified 
officers, and are there any hiccups to this new process or 
unintended second- or third-order effects through the new 
requirements for military officers to endeavor to be fully 
joint qualified? Are there any legislative changes necessary to 
further refine the process for the Active Guard or Reserve 
members?
    General Odierno. I would say that the operational 
experience piece of getting joint experience has been 
fundamentally important, especially over these last 10 years, 
since many of our joint jobs have been, in fact, in operational 
deployed areas. And that has helped us significantly getting 
credit for individuals who are actually performing on the 
ground, joint tasked together. So I think that has gone well.
    We still have some education that has to be done internal 
to all the Services to make sure the officers understand that 
they get the appropriate credit for what they are doing, and we 
are still working our way through that.
    Secondly, I would just say, is I think we just went over 
the last hurdle, because our operational trainer specifically 
in Joint Forces Command--which I would consider probably the 
most joint job we have--because they are responsible for 
training the Joint Force was, by legislation, not included to 
be considered inherently joint. We have now corrected that, and 
we are on our way to correcting that, so I think that is a very 
positive step forward.
    Ms. Bordallo. Admiral.
    Admiral Gortney. Yes, ma'am.
    And that program is actually run through the Joint Staff 
today, and we have, since its inception, over 2,400 officers 
have been able to be joint qualified as a result of that to 
include the active and the Reserve. Before, the Reserve were 
not able to become joint qualified.
    We see no hurdles, other than maybe an IT, IT technology on 
database management on how to do that and tracking. We have 
worked our way through that. We think it is a terrific program, 
and we want to expand it as much as we possibly can.
    Ms. Bordallo. Good. Thank you.
    Mr. Chairman, I yield back, but I do have a couple of other 
questions later on.
    Mr. Forbes. We will come back to you after everybody else, 
Ms. Bordallo, if that is okay.
    The gentleman from Nevada, Mr. Heck, is now recognized for 
5 minutes.
    Dr. Heck. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here today and for your 
service.
    General, my time in Iraq happened to be during the 7 months 
that you were on hiatus in 2008, so we didn't cross paths, but 
I can attest to the jointness of the operation and am proud and 
honored, as an Army guy, to wear the First MEF [Marine 
Expeditionary Force] patch as my right sleeve patch and having 
spent some time in your neck of the woods when I was at Joint 
Forces Staff College undergoing my advanced joint professional 
military education.
    I would like first to follow up on the JQO [Joint Qualified 
Officer] issue raised by the ranking member. I can tell you 
that while there are more opportunities for reservists to get 
joint qualified, it is a very difficult process because of the 
number of billets that are on the JTMD [Joint Table of Manning 
and Distribution] and the JMD [Joint Manning Document]. And I 
will just say that even though through the self-nominative 
process, you are able to get the education and get some points 
for exercises and other education, it is extremely difficult 
for reservists. And I would hope that we would open up other 
avenues for those in the Guard and the Reserve to get their 
JQO.
    Can you tell me what the plan is for the Joint Forces 
unmanned vehicle management systems, specifically the unmanned 
aircraft systems of excellence--the Center of Excellence, out 
of Creech?
    General Odierno. Congressman, initially, the joint unmanned 
aerial system task force is going to be sunsetting. The plan 
was for it to sunset in the end of 2012. We have moved that 
forward to the end of 2011, so the organization itself will 
sunset.
    But what will happen is the Joint Staff under the J-8 is 
going to create individuals there to continue to have oversight 
of the Service programs that continue on for not only the 
aerial but all of unmanned systems as we move forward. We think 
it is time to do that. We think we have the Services focused in 
the right areas on this and with the J-8 oversight, we think 
that is appropriate for us to continue to monitor as we move 
forward.
    Dr. Heck. So it will be a J-8 function for the Joint Staff. 
Any idea on where that--is that going to be another center of 
excellence or something that is going to be stood up the 
somewhere?
    General Odierno. It is going to be an 8- to 10-man cell 
stood up on the Joint Staff in the J-8 with the sole purpose of 
monitoring and overseeing the Services in conducting both 
unmanned aerial and other unmanned systems.
    Dr. Heck. So it is being pushed back out to the Services to 
do the work with an oversight cell.
    General Odierno. That is right.
    Dr. Heck. Thank you.
    I yield back, Mr. Chair.
    Mr. Forbes. Thank you, Joe.
    The gentleman from North Carolina, Mr. Kissell, is 
recognized for 5 minutes.
    Mr. Kissell. Thank you, Mr. Chairman.
    And thank you to our witnesses.
    I have to say, General Odierno, it is good to see you here 
in Washington. The last time I saw you was in Baghdad.
    One of the things, when I was spending many years in 
business, it seemed like there were times when we were 
successful at things and things were going well; then someone 
higher up decided, well, you can do without this, you can do 
without that.
    Also, the decision has been made, and I do have great 
concerns about this jointness. I can remember, I believe it was 
the invasion of Grenada, we had a famous story about somebody 
having to call somebody at Washington to speak to somebody at 
the Pentagon to call somebody else because there was no way to 
coordinate.
    We had a readiness hearing not long ago, and we had members 
from the four branches of service in. And I asked them, what is 
the biggest deficiency that they face, and three of the four 
branches said time, time for training.
    If that is the issue, where are we going to find time, not 
only to train in their particular expertise of their Service, 
but also time for the joint aspect of what we need to do? And 
will the lack of this position that will coordinate, how is 
that going to affect us?
    General or Admiral, if you all could give me some thoughts, 
I would appreciate it.
    General Odierno. Sure. First, on the training side, I would 
just say what is happening now among all the Services is they 
are training for the mission at hand.
    For example, in the Army, units getting ready to deploy to 
Iraq and Afghanistan, they are training in a joint concept to 
prepare themselves to operate on the specific contingency that 
they are able to do, and the other Services are doing the same.
    So the concern is, they don't have the time to train across 
the broad spectrum of missions that could come up under 
contingencies, and that is the concern with time.
    So what we have done is, with the time we have, we develop 
joint exercises, both at the highest level of command, whether 
it be the JTF [Joint Task Force] itself, division, a brigade, a 
group, a wing, a squadron, and we continue to get them 
incorporated into the joint training as well as, at the lowest 
levels, preparing them for the environment that they are going 
to operate in a joint multinational environment. That is 
occurring.
    What is lacking is if they have to go do something else, 
and that is what they are not having the time to do, and that 
is the concern.
    Mr. Kissell. Dr. Krepinevich, we have kind of left you out 
of the conversation here, so I want to get you back involved. 
Am I correct in opening remarks that you maybe don't agree that 
this is a decision that we should be making in closing down the 
center?
    Dr. Krepinevich. As I said, I don't disagree with the 
decision to shut down Joint Forces Command. My primary concern 
is that the original mission for which it was established was 
never really accomplished by the command.
    I am hoping that in the wake of its disestablishment, this 
mission will find a true home and true support.
    If you look at Joint Forces Command and especially in terms 
of the mission of Joint Force trainer, Joint Force provider, 
those were missions initially assigned to Atlantic Command in 
1993. Now, when Joint Forces Command was created in 1999, the 
futures mission was with the add-on. That was the purpose for 
disestablishing Atlantic Command. But, again, I am sorry to say 
that despite the efforts of many good people, we still haven't 
gotten traction on preparing for what some people call the next 
big thing.
    General Odierno. If I could just add to that, I don't 
disagree with what Dr. Krepinevich is saying. In fact, as we 
went through this review, we found that there were some core 
functions that I believe were not being done to the best of our 
abilities. So it is not only a disestablishment of the four-
star headquarters, but it is actually a reorganization of how 
we want to better impact our Joint Force, and we are 
reorganizing ourselves, in my mind, so we gain better 
synchronization and integration.
    And we are doing it by putting, building a center which 
will remain in Norfolk, which has been a large investment put 
in there for modeling, simulation, experimentation, for us to 
look to the future, as well as today, and better synchronize 
what we are doing between concept development doctrine and our 
training as we look ahead, so that is the intent.
    So it is not going away. It is the four-star piece of it 
and the four-star proponent that is going away, but many of the 
key pieces will remain and be reorganized to address some of 
the problems, actually, that Dr. Krepinevich has brought up in 
his testimony.
    Now, we will have to continue to review this over time to 
ensure that we are, in fact, doing the things we think we 
should be doing, and that will be something we have to pay 
attention to. And it will be up to the chairman, vice-chairman 
and the J7 to do those reviews as we move forward.
    Mr. Kissell. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Kissell.
    The gentleman from New York, Mr. Gibson, is recognized for 
5 minutes.
    Mr. Gibson. Thanks, Mr. Chairman.
    And I appreciate the distinguished panel being here today. 
Discussion has been productive.
    The first one is just a process question. With the 
disestablishment of JFCOM, will the remaining command have any 
role in the global force management process?
    General Odierno. What will happen is the expertise that we 
have built in Norfolk to do global force management will 
remain. It will be become part of the J-3 of the Joint Staff. 
And as they do global force management, they will then do that, 
and the J-3 will then bring it to the Secretary of Defense, who 
actually has the authority to make the decisions on Global 
Force Management through advisement by the chairman, and that 
will continue.
    Mr. Gibson. Okay, very well. And then just to really 
reinforce some of the comments made earlier, I think what is 
clear with operations in Iraq and Afghanistan that at the 
individual leader and collective level across the force, there 
is great confidence, joint confidence in the formations, 
particularly in counterinsurgency operations.
    But I would like to take this point that General Odierno 
made moments ago to another level about some of the risk we are 
carrying about full spectrum operations. In my last assignment, 
I led the Army's component of the Global Response Force, and it 
was my assessment that given the ongoing operations in Iraq and 
Afghanistan, we were accepting a great deal of risk in our 
Global Response Force, and that was understandable, given the 
decision that higher level commanders had to make.
    But going forward, particularly when you look at the budget 
and what is forecasted in terms of troop levels and assumptions 
with regard to Afghanistan, when we are going to complete our 
combat task there, how is that going to impact Joint Forces 
Command and the Joint Staff as they look to try to reduce the 
risk in terms of our joint readiness?
    I would point to, not just the joint forceable entry 
exercises that we did, but also the deployment that we did to 
Haiti, certainly Herculean effort done by the GRF [Global 
Response Force], but we trickled in. We really didn't have 
enough sorties to get the force on the ground fast enough, and 
that was some trade-offs based on other theaters.
    But as we look at full spectrum, how are we, from the 
training perspective, going to manage that risk, and largely we 
are probably talking about staff tasks here, so we are talking 
about simulations? And how we are going to ensure we have the 
cadence, the reputation and cadence to build that competency? 
And then from the management of the readiness side, how are we 
going to track that and ensure that we are communicating the 
risk to the President and to the Secretary of Defense?
    General Odierno. I think that, first off, we do that on a 
quite regular basis, understanding where our shortfalls are, 
what we can and can't do. And I think the chairman takes a lot 
of time in making sure that both the Secretary of Defense and 
the President understands what those risks are.
    You know, we don't know the unknown. I mean, I think the 
thought process is with us finishing our commitment in Iraq 
here at the end of the year, that that will allow us to start 
to do some of the things we have not been able to do. But I 
hesitate to say that because the unknown is the unknown, and we 
never know what other commitments could come up.
    But I think the thought process across the force is that we 
have to start folks in on other areas, and Dr. Krepinevich 
mentioned China, and that is an important one and what our role 
will be there and how we prepare ourselves.
    He also mentioned anti-access. That is something that we 
are really starting to take a hard look now and how we are 
going to do that. So those are the kinds of things we 
absolutely have to stay focused on and prepare our forces so 
that they are prepared to respond. But, again, time is an issue 
and the amount of our commitment of our forces and how long 
that remains will always be an issue and whether we are able to 
meet these other demands that you have mentioned.
    Dr. Krepinevich. I would also like to add, sir, that not 
100 percent of the force is focused on Iraq and Afghanistan; 
not 100 percent of the force owns the same amount of risk and 
being able to fight through the full spectrum of conflict. So 
you will see a large majority of your Navy and your Air Force 
that are focused on the high-end war, while we are accepting 
risk and because of the capacity and the near-term fight for 
the Army and the Marine Corps.
    And as we draw down, you are going to see that shift again 
because the Service chiefs clearly recognize that need to be 
able to full--full spectrum ops.
    Mr. Gibson. Thank you. And as we manage this risk and as we 
develop competency, I also envision this is going to help our 
diplomats and, really, the Administration as they work to 
advance our interests. When we can demonstrate a capability to 
deploy Joint Forces, followed by early entry forces, followed 
by campaign forces and sustainment forces, even in an exercise, 
I think that will be more meaningful when we deal with 
situations, perhaps in Iran, Korea, China.
    As you know, I mean, really deterrence is about capability 
and will. If you have got will and no capability, you don't 
have deterrence. And vice versa, if you have got capability and 
no will.
    So I see this piece of this, restoring the joint readiness 
to a more acceptable level of risk, is actually going to help 
our country manage our overall risk and advance our interest in 
the out-years.
    Thanks, Mr. Chairman.
    Mr. Forbes. Doctor, did you have a response that you wanted 
to make to that or did I----
    Dr. Krepinevich. Yes, just a brief one.
    I think the issue here is the responsibility to manage 
near-term and long-term risk. What you are trying to do is 
mitigate or minimize the overall risks in your situation.
    And so in terms of, as General Odierno said, we have got a 
lot of stress on the force right now. Somebody has to speak up 
and say, well, we are going to have even more stress on the 
force down the road if we don't do certain things now to 
prepare.
    And so you mentioned a particular exercise about forcible 
entry. Well, you know, a big part of the issue of anti-access/
aerial denial is, you know, missile forces holding at-risk 
assets to forward bases, ships being vulnerable in the 
littoral.
    I will just give you a quick example. There was one large 
exercise that Joint Forces Command did conduct in 2002. It was 
called Millennium Challenge 2002. And in that exercise, the 
enemy was a country similar to Iran.
    And we found that, number one, operating our fleet in the 
Persian Gulf was a high-risk operation. A significant part of 
the fleet was either damaged or destroyed.
    Number two, at the time the Army had a concept where it 
said we need to deploy a brigade forward in 96 hours, well, we 
got the brigade forward, but then how do you sustain it 
forward? That was an issue that developed.
    Third was the enemy in this case decided to operate like 
the Serbians and not turn on their radars like they didn't do 
in 1999, so we were restricted to operating with our stealth 
aircraft. And the solution to that was to tell these guys to 
turn their radars back on.
    So there were a number of lessons that came out of that, 
that said, look, toward the end of even the 2000-aughts, if you 
are thinking about projecting power in the Persian Gulf, even 
against a minor adversary, given the geography, you are going 
to confront a number of different problems.
    And, in my estimation, that exercise was a success because, 
you know, it identified areas where we were doing well and 
areas where we needed to think about in terms of how we need to 
operate in the future.
    Unfortunately, those lessons, I think, were left on the 
cutting room floor. I am not quite sure why, but you can begin 
to see now--I mean, Congresswoman Bordallo, you know, Guam, 
Andersen, we are piling stuff into Guam. You know, somebody 
said it is going to flip over one of these days, there is so 
much military capability--I know, I know.
    But the point is, this isn't lost on the Chinese. And if 
you look at the ballistic missiles they are building, the 
greater and greater percentage of them are longer and longer 
range.
    I mean, Guam and Andersen have a gigantic crosshairs on 
them right now. Well, what are we going to do about that? Are 
we just going to pile targets into Andersen so that the Chinese 
can intimidate us when they conduct, you know, some kind of 
military cooperation or coercion in the western Pacific?
    We have got ships in the fleet that, you know, may be able 
to operate in the western Pacific, but you know, they have 
fairly shallow magazines. Well, we can't re-arm them at sea. 
And if they have got to come back to Guam for re-arming, then 
they are coming right into the bull's eye.
    Okay, so what is the solution here? You know, back in the 
early 1990s, you know, studies in the office of the Secretary 
of Defense identified this as a problem. I have quotes from 
General Fogleman and Admiral Johnson, the Service chiefs of the 
Air Force and the Navy, in the mid-1990s saying this is a 
problem.
    And here we are 2011, and the Air Force and the Navy are 
still trying to come up with an air-sea battle concept 
independent of what Joint Forces Command has done to try and 
begin to focus on this problem. You know, we are doing a very 
poor job of anticipating. And I agree with General Odierno; 
there are certain things you just can't know, and you are 
always going to be surprised to some extent. But you shouldn't 
be surprised by things like this.
    Mr. Gibson. Mr. Chairman, if I could just wrap up from 
that, I would just like to make one other comment, please.
    Mr. Forbes. Yes, sir.
    Mr. Gibson. Thanks very much.
    Precisely the point I am hoping to make here in this 
hearing is that as we complete operations in Iraq and 
Afghanistan and as we look beyond COIN [counterinsurgency] 
being really our major focus, that we need to be brutally 
honest with ourselves in terms of our capability right now to 
conduct joint forceable entry, lead to early arriving forces, 
to campaign forces, to sustaining those forces, ultimately to 
bring victory in what would be probably a low-probability but 
very high-risk scenario right now. And this has everything to 
do with connectivity between how we communicate and how our 
diplomatic efforts go forward.
    I want to be clear: In a perfect world, we will never have 
to do that. But I think to the extent that we show a 
capability, if we show a very competent capability to do that, 
I think that is going to help our country in the out-years.
    Thanks.
    Mr. Forbes. Thank you, Mr. Gibson.
    The gentleman from Arkansas, Mr. Griffin, is recognized for 
5 minutes.
    Mr. Griffin. Thank you very much, Mr. Chairman.
    General, I have been in the Reserve for Army Reserve for 
about 15 years, and I was wondering if you would speak to the 
Reserve Component and Guard and how important, if at all, joint 
training is in that context.
    I know that for me personally, joint is something you learn 
about when you get deployed to theater, and I am sure, I know 
there have been attempts to address that and sort of change 
that. But we all know that there are limited resources. There 
is limited time for reservists, particularly the Guard.
    And I wonder if you would just comment on that and what you 
all are doing to address that in that context?
    General Odierno. There are a couple of things that we do.
    First off, the way we do operations today is the Guard and 
the Reserves play a critical role, whether it be Iraq, 
Afghanistan, Japan, even some of the standing Joint Task Force 
we have prepared for response to a natural--a problem inside of 
the United States.
    So we now have Joint Standing Task Forces that are made up 
of National Guard and Reserve component. So they are critical 
to that. They participate in all of the Joint Staffs and 
combined staffs that we have established for all of the 
exercises we do, I mean, all of the operational missions that 
we are doing, and they also play a role in all of the exercises 
that we do.
    We also have in our Joint Warfighting Center, we have 
reservists and National Guard there who help us to train and 
sustain this, and that will remain. We have also developed both 
individual and collective training online that will remain as 
well in the deputy director J7 that will have access to the 
whole force to include our Joint Force.
    So we have the pieces there, it is still about getting 
individuals, leaders and others to take advantage of this. It 
is also about making sure we don't forget about the Reserve 
component and Guard as we move forward. And I think we have 
worked very hard at this as we have gone forward in many of the 
operations and training environments that we have established.
    Mr. Griffin. Are a lot of these individuals, Guard and 
Reserve folks, are they AGR [Active Guard Reserve]? Are they 
full-time AGR?
    General Odierno. It is a combination of all.
    Mr. Griffin. TPU [Troop Program Unit] and others.
    General Odierno. It is a combination. Some are full time, 
but we also have many AGR and National Guard who come in on a 
periodic basis.
    Mr. Griffin. I am less concerned about you plugging people 
into your structure, because that is going to be a limited 
percentage of the Guard and Reserve force.
    What I am more concerned about is just culturally 
incorporating the Guard and Reserve into what is going on with 
the Active Duty. I know that there are joint exercises 
occasionally, but in my real world experience, and I am still 
in a TPU--I am in the process of getting out of it because I 
have to--but in my experience, jointness is something that a 
lot of reservists and Guard members on a weekend basis just 
don't have any dealings with.
    General Odierno. I will say that I have also, we have had 
some problems with National Guard and Reserve Component general 
officers who have not had the opportunity to serve in joint 
assignments. And we are trying to address that now and trying 
to identify them, recognize what they are doing and how we can 
better incorporate them. So I will tell you it is not a full 
solution that we have developed.
    Mr. Griffin. It is a challenge.
    General Odierno. It is a challenge.
    And it is also about making sure that we have the 
leadership of the National Guard, which they do, and Reserve 
Component of all the Services understanding the importance of 
ensuring they do get involved in the joint culture, because it 
is something that we all are totally involved with.
    We don't do many large-scale exercises anymore that are not 
joint. We do very few Service-only exercises.
    And so it is important that we integrate that because the 
Guard and the Reserves are going to be such an important part 
of our operational capability as we move forward.
    Mr. Griffin. As we move away from the strategic concept.
    General Odierno. That is right.
    Mr. Griffin. Admiral, do you have anything to add in my 21 
seconds I have left?
    Admiral Gortney. Yes, sir. One of our key take-aways, when 
it comes to employing the Guard and Reserve, we don't want to 
go back to where we were 10 years ago. And as we are looking to 
the future, it is, how are we going to employ the Guard and 
Reserve? How can we take those units? How can we train them and 
employ them, whether they are in exercises, some rotational 
capacity. And in order to do that, there has got to be training 
on the front end of that, and that is where we are going to 
have to focus that joint training.
    Mr. Griffin. Thank you, all. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Forbes. Thank you, Mr. Griffin.
    We appreciate all three of you being here today. I have got 
just a couple of questions. We will come back, Madeleine, if 
that is okay.
    One of the frustrating points that we have as Members of 
Congress, and I don't expect you to comment on this, is that we 
feel over and over again today, from the Department, that we 
are not getting true risk assessments, true strategic analysis, 
because it is being so budget driven, that it is more budget 
driven than it is by risk assessment.
    That may be true. It may be false. But it is not just us. 
The independent panel that was as partisan as you can get--no 
one thought they would reach consensus--they reached a 
consensus that that is what they thought, that the QDR even was 
now being budget driven, as opposed to being driven by risk 
assessments.
    We have to do the best we can to pull our way through that. 
And we get wonderful men like you who come over to testify to 
us, but we know when you walk through those doors, your hands 
aren't physically tied behind you, but your testimony is, 
because you have to salute and you have to take what is given 
to you.
    And I don't say that critically; I am just saying we 
understand that. We don't expect you to do different.
    But our job here is to try to filter through that the best 
we can and get the answers we need because, in the final 
analysis, the job that Ms. Bordallo and I have is to make sure, 
when we have a fight anywhere in the world, we don't point 
fingers but that our men and women are ready for that fight.
    Doctor, you talked about Millennium Challenge, but you 
didn't really get the clear picture, I don't think, of why we 
left some of those concepts on the floor.
    You know, you pointed out to me in conversations before, 
three examples, Admiral Yarnell and I think his war game, and 
the Panzer situation in Germany.
    And we have a difficult situation, I think, some time, 
because we love to reinforce what we have done as opposed to 
learn the lessons to predict where we are coming. And I am 
going to ask you if you can just to elaborate a little bit on 
your thought and any potential concerns you have about our 
inability to continue to look at the experimentation and what 
we need to be learning from lessons learned and some of the 
institutional concerns that prohibit us from learning those 
lessons.
    Dr. Krepinevich. Well, specifically, in terms of Joint 
Forces Command, again, one of the motivating factors behind its 
creation was to have someone, four-star commander with 
sufficient clout, so that the results of these exercises and 
experiments would get a hearing in terms of establishing 
requirements, that there would be an interest on the part of 
the senior defense leadership back in the Pentagon on the 
results and on, you know, what the consequences were and how 
they might be applied to the defense program and forces and 
such.
    There was discussion at the time about giving MFP [major 
force program] authority to Joint Forces Command. For some 
reason, several Joint Forces Command commanders rejected that, 
but again, that would have given them the opportunity, when you 
are looking at some of these emerging challenges, to say that 
if we could prototype this capability, would it make a big 
difference or wouldn't it? And again, we see prototyping being 
an important factor in the past in militaries getting a sense 
of what they need to be able to do next.
    The fact that the commander of Joint Forces Command didn't 
have a seat on the JROC [Joint Requirements Oversight Council], 
didn't have a seat on the Defense Acquisition Board, again, 
really no voice in terms of making recommendations that they 
could really, perhaps, stick in terms of requirements and, you 
know, program choices and so on.
    The fact that there was turnover, you know, the commanders 
typically lasted 2 or 3 years. My sense was that if you got 
somebody who is really capable, two 3-year tours followed by a 
third tour as Vice Chairman of the Joint Chiefs, because when 
you are talking about changes in doctrine, you are talking 
about new kinds of capabilities and systems. It is not a 2-year 
or 3-year problem you have to solve, it is an 8- or a 9- or a 
10-year problem.
    Dr. Krepinevich. So I think those are some of the things. 
And then again, the Services, they, according to Title 10, they 
are responsible for organizing, training, and equipping the 
force. And they guard that prerogative jealously. You know, 
that is their responsibility. They feel like they have the 
level of expertise inherent in their organization to be able to 
make the best decisions about ground forces, Air Forces, Naval 
forces, and so on. And I think they are reluctant to, quite 
frankly, put a lot of trust in one command that will not only 
see things the way they do but see things in the right way. You 
know, why is your view better than mine?
    So there are a number of reasons I think, you know, why 
there is difficulty in getting this done. And I also mentioned 
in the testimony that oftentimes field exercises can be a big 
help because they can show you what is possible. I mentioned 
Admiral Pratt after Fleet Problem IX, you know, moving his flag 
from a battleship to a carrier because he was so impressed by 
what a carrier could do. General Halder, after the '37 field 
exercises in Germany, just was amazed at, not the theory, but 
actually what he could see happening and the reality of that. 
And it is not just the senior leaders. It is officers at a 
number of different levels that generate a momentum for this 
kind of change where it wouldn't exist. It is hard to get 
people excited about a war game or a simulation. It is much 
easier to get people excited when they can actually see it 
happening in reality.
    So I think that is another particular issue when you are 
thinking about this particular role for Joint Forces Command. 
General Odierno said, you know, obviously, we haven't seen 
anything like Millennium Challenge since Millennium Challenge. 
Understandably, you have wars on several fronts, tightening 
budgets. But at the same time, I think if you look at the 
American military's history and experience, in the 1930s, we 
were doing these things with the fleet problem and so on; we 
were in the middle of a depression when we did those things. 
The United States Army in the late 1950s and early 1960s, at 
the height of the Cold War, stood down an entire division to 
develop the air mobile/air assault concept. In the early 1970s, 
they did it with the TRICAP [triple capability] Division. In 
1980s, they did it with the High Technology Test Bed Division. 
So they were willing to take risks in the short term in order 
to minimize risks in the long term. I think that approach is 
important.
    And the final thing I will say is we don't seem to do 
strategy very well. I think there was kind of an allusion to 
that in the critique of the QDR [Quadrennial Defense Review]. 
If you don't do strategy, if you don't take it seriously, and 
strategy involves looking down the road as well as what you 
have got in front of you today, then everything that comes up 
seems to be priority number one, because you really haven't 
done that risk analysis to where you are balancing in the near-
term and the long-term risk. I would say it is not just a 
military problem. My understanding is it is quite 
characteristic not only of this Administration but the previous 
Administration.
    Mr. Forbes. Or Administrations. Let me read you a quote 
from some military papers. It says this: The building of joint 
operations systems, jointness, is the focal point of 
modernization and preparations for military struggle. Do either 
of the three of you agree with that statement or disagree with 
that statement?
    If you need me to, let me read it again: The building of 
operations systems is the focal point of modernization and 
preparations for military struggle.
    Dr. Krepinevich. I will take the first crack at it, I 
guess. I think what that quote says to me is there are some 
major strategic choices out there, you know, getting back to 
the point of strategy. Anti-access/area denial. Are we going to 
counterbalance China in the Western Pacific or aren't we? What 
is it going to take do it? Is that possible technologically? Is 
it possible fiscally for us to do that? Is it possible if we 
get some help from our allies? What is it going to take? Or if 
we can't do it, then that is something the commander in chief 
needs to know so he can adapt our overall grand strategy to 
take that into account.
    The diffusion of guided weapons into the hands of irregular 
forces, that is coming. You know, what will a third Lebanon war 
look like if Hezbollah has out of its 4,000 projectiles that it 
might fire into Israel as it did in the last war maybe 1,000 
that are guided? Space: Are we going to continue to pack stuff 
into low Earth orbit, or are we going to emphasize more 
mission-type orders, commanders' intent, terrestrial-based 
alternative systems? We don't know. But we know we can't invest 
the same dollar twice.
    And so there are a number of strategic choices that are in 
front of us. And the importance of what Joint Forces Command in 
this area was designed to do was to help us get some of those 
answers, because you know, only they could bring together a 
Joint Force; only they could ideally do an impartial analysis 
and provide good input into decisionmakers who are making 
decisions about strategy and programs and budgets.
    Mr. Forbes. Admiral, what is your take on that phrase?
    Admiral Gortney. I have a little bit more water in my 
glass. I don't disagree with any of the challenges, and I agree 
with almost all of the challenges that the doctor brought out.
    But at the end of the day, I think we are doing better than 
most people think we do. And I think we are doing as well as 
our predecessors did, given the challenges and constraints and 
restraints that they were confronted with.
    When it comes to joint training, after 10 years of combat, 
everybody has found out pretty closely that there is no team 
sport like combat. And the Joint Force, no Service can go 
alone; no platoon, no ship, no squadron can do it alone. It is 
the synergy of the Joint Force bringing tasks to bear to create 
the effect that we want to effect on the battlefield. And I 
think we are doing pretty good work with that. And it is 
because our predecessors gave us that capability, and our 
leaders had the vision of Goldwater-Nichols to force us to do 
it, because the Services wouldn't have done it on their own, 
clearly.
    So what are some of the challenges, though, of that weapons 
system?
    Mr. Forbes. And Admiral, I am going to let you come back to 
that. Could we focus just on this statement, if you would? 
Because this statement basically is saying that jointness is a 
focal point of modernization and preparations for military 
struggle. And I want you to say all you want to say. I am going 
to give you plenty of time to do that. But do you agree with 
that statement or disagree with that statement?
    Admiral Gortney. No, sir, I agree with it. And that is how 
I opened it up. Jointness is the philosophy that underpins the 
United States strategic and operational applications of the 
military. That is how I opened up my----
    Mr. Forbes. I appreciate that.
    And General.
    General Odierno. I do agree with it.
    Mr. Forbes. Okay.
    And the reason that I asked that--it is not a trick 
question--is that statement is coming from the most recent PLA 
[People's Liberation Army] defense white paper that they put 
out. So they recognize that.
    Here is the confusion that I have, not from any of the 
three of you. But when the Secretary announced the closure of 
Joint Forces Command, he didn't do it in a venue of saying we 
want to do jointness and keep it as a priority. He did it in a 
venue of saying we have got to make significant cuts to the 
military, $100 billion of cuts basically at the time. And here 
is one of the big cuts that we are going to do because we are 
going to save money.
    Most of us realize, when you start saying you are going to 
do something better and you are going to save money, oftentimes 
that comes back to bite you. You get what you pay for. So, when 
the Secretary came out and said, we can now cut this because we 
are there, help me with what your best understanding is. Was he 
saying that we have got to make some cost cuts and we are going 
to do this, or was he saying we have done the analysis and we 
think we can do jointness better because it is still going to 
be a priority for us? Or was he saying we have already 
accomplished this now and we don't need to put that kind of 
focus on it?
    General Odierno. I am not going to try read the mind of the 
Secretary of Defense.
    Mr. Forbes. No.
    General Odierno. But what I am going to tell you is the 
conversations I have had with him and where we are now going. 
What I think his point was is that we have made progress in 
jointness. We are much better at it today than we were 10, 15 
years ago. And we believe, he believes, and I believe it is no 
longer necessary to have a four-star command to oversee the 
process of jointness.
    But I would also say what we found is what had happened to 
Joint Forces Command over the 10 years is there is many things 
that were attached to it, added to it that has absolutely 
nothing to do with meeting our core mission of sustaining 
jointness. And so I think the solution we came to is that we 
need to eliminate those things that are redundant and done 
other places, those things that don't really apply to us 
sustaining our jointness in the future, and let's create 
something that is more efficient but still enables us to focus 
on this very important task of jointness, understanding that we 
have made progress over the last 10 years.
    Mr. Forbes. And General, if you would, I think a lot of 
those additional things were sent down from the Department of 
Defense to Joint Forces Command. They didn't birth from the 
Joint Forces Command. They were sent down from the top, saying, 
will you do this? The second thing, though, that concerns me is 
when we say we no longer need a four-star general to push these 
concepts and what they are doing, one of the real concerns I 
have is with the experimentation and what we are doing there.
    And you and I had a conversation just this morning, and I 
really respect and appreciate what you said, and I hope it is 
okay to repeat it, in that you pushed strongly for the 
continuation of that experimentation component because you 
thought it was valuable. Fair statement?
    General Odierno. Absolutely fair.
    Mr. Forbes. And secondly, that you had to push hard for it 
because you got some push back.
    General Odierno. There were some elements who didn't agree 
with it. It was not the Secretary.
    Mr. Forbes. No, no, no, this is not a pointing the finger 
at the Secretary. This is just saying you got some push back. I 
think the doctor would say that what you did was very 
important, that we keep experimentation.
    Here is my worry. You are a big guy in a lot of ways, you 
know, not just the stars on your shoulders, but you carry a lot 
of clout with you, and you had to push hard for that concept. 
If we had someone that didn't have that kind of clout, I don't 
know if that day would have been won or not. And I don't know 
tomorrow, if we don't have somebody in there with that kind of 
clout pushing it, I don't know whether that day--let me just if 
I can, and then I am going to give you a chance.
    The independent panel that came back, not on Joint Forces 
Command, but on the QDR, basically said exactly that. They said 
that what happens is now, instead of doing these looks at what 
we need to do, what we are doing is using it to justify what we 
are already doing. And that is just the natural bureaucratic 
tendency to have happen. How are we going to be assured that 
that is not going to happen with the whole jointness concept? 
Because clearly, the message the Secretary gave in his opening 
volley was, oh, we have kind of reached this point now, and all 
we have to do is make sure we don't slide back, but we don't 
have to keep pushing forward.
    General Odierno. First, what I would say is with the way we 
have set this up for the future is that we now have a three-
star J7, which in the past it has been a one-star general, who 
will focus his full time and effort on overseeing this effort 
for the chairman and the vice chairman. And what you are really 
doing is, in my opinion, cutting a level of command that allows 
this issue to be raised much more quickly and, when there is an 
issue, be brought directly to the chairman and the vice 
chairman, who ultimately has the responsibility by Title 10 for 
jointness.
    One of the struggles I see, although I have not had to live 
it because my time as Joint Forces Command has been different 
than others, is that he really has very few authorities. The 
authorities rest with the chairman and the vice chairman and 
the Joint Chiefs of Staff on making decisions that are key to 
sustaining jointness over time.
    What the Joint Forces Command commander was able to do was 
raise some issues, bring attention to it. And I think that is 
the point you are making.
    But I would argue today, because of where we come and 
because in fact we are going to raise the level of expertise on 
the Joint Staff on this, I think it will actually streamline 
it. And I think it forces the chairman and the vice chairman to 
make sure they are overseeing this.
    And as we talked, and I will say it now, is, as we walk 
through this, the chairman, we all agree that in a year, we 
will do an analysis of this. And we will continue to do this to 
make sure we got it right. Because we think it is so important 
that we are able to sustain our ability to move forward with 
jointness.
    Mr. Forbes. Would you mind if I just asked a couple more 
questions on that, General? Oh, I will come right back to him. 
The concern that you said you thought it was important that we 
do an analysis in a year or so to make sure we had made the 
right decisions because it was so important on the jointness 
issue. And I think, but I just wanted to make sure that I was 
correct, you said that you have done an analysis of that 
yourself at this particular point in time and think we are 
moving in the right direction. And I think when I asked you on 
that, too, you said that analysis was--because I used the 
concern of what happens if somebody kidnaps you or takes you 
away, and you said that this would all obviously be done in a 
written format and that analysis. And I take it when the 
chairman has this done down the road, the same thing would take 
place. It would be a written analysis because it was so 
important to do. Fair?
    General Odierno. Yeah. I can't speak for what the chairman 
will do, but what I can tell you is we will provide, we are 
providing a written analysis of how we came to our conclusion.
    Mr. Forbes. But the analysis that should be done in a year 
will be similar?
    General Odierno. We will use that as a baseline.
    Mr. Forbes. And the admiral is shaking his head yes.
    Then help me with this. If it is so important, and I agree 
with you, and that that analysis needed to be done by you and 
that analysis to be done, why wasn't it important that the 
Secretary do that same kind of analysis before he announced the 
disestablishment, or as he said at first, the closure of the 
Joint Forces Command? And the reason I raise it is this, 
because I think you can appreciate how it does not give quite 
the same credibility when you come out and say, by the 
Secretary of Defense, we are going to do this, and then say, 
you are tasked to do it, and then come back and give us the 
analysis that we are doing the right thing.
    It would have been far more credible for us as a Congress 
had the Secretary come in and said, let's do an analysis and 
see if that is the right decision to do first so that everybody 
could have analyzed that and looked at that same kind of 
analysis. Why wasn't that kind of analysis done before the 
decision was made?
    General Odierno. I can't say it wasn't. What I know is I 
got a guidance letter based on analysis that was given to Joint 
Forces Command before I got there. So we took the guidance 
letter that we got from the Office of Secretary of Defense on 
what they wanted us to look at, and then we did our own 
independent analysis based on the guidance letter we received. 
So I can't discuss about what analysis was done prior.
    Mr. Forbes. I am not asking you. The only thing I would ask 
is this. And you have been very patient with me. But oftentimes 
we see reports, we have just had some from the GAO [Government 
Accountability Office] and other groups that might analyze 
decisions we have made, whether it is moving carriers or 
whatever else, and sometimes they disagree by hundreds of 
billions of dollars. If I am doing an analysis, it would seem 
to me to make sense that one of the things I would want to do 
is look at the previous analysis that was done and compare my 
analysis with that and say, did we line up, or how far off we 
were.
    My question to you is, not just a guidance letter, but were 
you ever presented with the written analysis that was done to 
substantiate the decision to shut down the Joint Forces Command 
initially?
    General Odierno. My thought was--my impression was that 
they wanted my independent military opinion based on 
independent analysis to come forward. And that is what I did.
    Mr. Forbes. And General, the last thing I guess I will ask 
you is this. When you were sent down to the Joint Forces 
Command, were your instructions to go down and make an 
independent analysis and come back and tell us what we should 
do, or was it to disestablish the Joint Forces Command?
    General Odierno. I was required to report back to the 
Secretary on my findings of the analysis on what I thought we 
should do.
    Mr. Forbes. To shut down the Joint Forces Command.
    General Odierno. To take a look at the guidance I had been 
given, which was based on the announcement that the Secretary 
did, was to disestablish Joint Forces Command. And he asked me 
to do an independent analysis. We did that. We presented that 
back to the Secretary.
    Mr. Forbes. But General, again, your instructions, as I 
understood them, and you correct me if I am wrong, was not to 
come back and do an independent analysis and let us know what 
we should do. It was to say how best to shut down and 
disestablish the Joint Forces Command.
    General Odierno. I would say that is correct.
    Mr. Forbes. Okay. And the only thing I throw back to you is 
you understand how that is less credible to us than if the 
Secretary had said to a very respected general such as 
yourself, go down there and do an independent analysis and come 
down and tell us what decision we should make.
    And the final thing I will just say, General, is to this 
date, if that analysis exists prior to August 9, when the 
Secretary made it, he has refused to give it to any Member of 
Congress that I have seen from this committee, the Budget 
Committee, the Oversight Committee, or the Senate, or anything 
else. And that I think is a huge concern of ours.
    But thank you for that.
    Admiral, one quick question for you. When we did BRAC [Base 
Closure and Realignment] stuff on here, this committee also has 
jurisdiction over MILCON [military construction] projects, when 
we do a MILCON project--my good friend has overseen a lot of 
those in Guam now--there is kind of a start and there is a 
stop. And at some particular point, we walk in and say this 
building is done, and it is completed. How is jointness, and 
how is education? Because you mentioned to me both yesterday 
and today, you said all our young men and women know is 
jointness, because that is what they have been trained to do. 
But it would seem to me that jointness is never something that 
we just get done and say, we are done. It seems like it is 
constantly being trained, and taught, and built, and 
reexamined, and looked at, and it is an evolving, dynamic 
thing. Is it more like the MILCON project or more like that 
education thing that is an ongoing process?
    Admiral Gortney. It is a continuum of education, sir, as 
are most things. And we have put process in place. We have 
legislated education requirements and experience requirements 
that service members must achieve in order to promote. And we 
reinforce that through a reporting process. Out of every 
statutory board, promotion board, the Secretary--the chairman 
has to sign to the Secretary joint qualifications, joint 
educational requirements, things of that nature that mandates 
that it continues.
    Mr. Forbes. And you guys do a wonderful job. You train our 
young men and women better than any in the world. But you start 
fresh with every young man and woman that comes and raises 
their hands and are sworn in.
    And my big concern here is this. I am not expecting you 
guys to weigh in on it. But I fear when I hear the Secretary 
say we have reached jointness and now we just have to keep from 
backsliding, that we forget that jointness is that component of 
rebuilding that, retraining that to every single one of those 
recruits and also, like the doctor mentioned, constantly 
looking at a dynamic, evolving world and how we are going to do 
the jointness for our allies and for us.
    And Doctor, I know you had a comment earlier. And thanks 
for your patience with me.
    And I will let you do that and then go back to Ms. 
Bordallo.
    Dr. Krepinevich. I think at least in terms of the purpose 
for which Joint Forces Command was established as separate from 
Atlantic Command, I think it was pretty clear. I don't know 
that you would really need a rigorous, detailed analysis to 
know that that mission was not being accomplished, the joint 
concept development and exercises, to the point where you could 
say we need to continue to justify this as a command. Plus you 
had the fact that Atlantic Command had a geographic 
responsibility. Joint Forces Command no longer had one. Nor was 
the Joint Forces Command commander the Supreme Commander for 
Allied Command Transformations. So I think that is one aspect 
of it. I mean having sort of tracked the command since its 
inception, I don't think it is a hard case to make that in 
terms of accomplishing that mission after 12 years, this wasn't 
working. Now, I think we need to find something that works. But 
clearly, it seemed to me that what we had was not working.
    In terms of General Odierno talked about pushback and so 
on, there has been a lot of pushback over time because a lot of 
the things the Joint Forces Command was coming up with weren't 
seen as particularly relevant. And when I talked to one of the 
commanders a few years ago, the issue came up, we are looking 
20 to 30 years out. And I said in a way, you are kind of 
wasting your time. Nobody has a clue what is going to happen 20 
or 30 years from now. I said, if you look back historically, 
and I was part of the National Defense Panel conversations 
course, you are looking 5 to 8, maybe 10 years out. And that is 
what you are really focused on. And in a sense, some of these 
problems are problems that we know of today that are just going 
to get worse over time. So, of course, if that is what you 
think your mission is and that is what you are providing by way 
of results, you are not going to satisfy very many people.
    The concepts they were coming up with were interesting but 
very abstract. And actually, the impetus for them was a memo 
signed out by Secretary Rumsfeld in August of 2002 that said we 
need joint integrating and operating concepts to deal with 
these problems that he had identified in the 2001 QDR, which 
were not terribly different from the ones that I mentioned 
here. And unfortunately, in talking to a number of senior 
military leaders, they just did not feel that they were useful 
to them. So I think that created a problem.
    Now, do we have a solution? I don't know. I would say that 
I would rather be a combatant commander than a three-star J7. I 
think they have more clout. I think they have more influence. I 
think they have more access. I could be wrong.
    I do know that, in 1999, when Secretary Cohen and General 
Shelton were approached by Members of Congress about 
establishing a Joint Forces Command because they took the 
National Defense Panel report, they did say that periodically 
we would revisit the command and see how well it is doing and 
make adaptations so that at least that is on the table.
    My sense is I think that if you look at what the command 
has done well, in a sense there is kind of three missions: One 
is what some of us in the military in the past have called 
polishing the cannonball; you know, to get more efficient at 
what you are already doing. And I think, based on my 
experience, I think the command has done that pretty darn well.
    Second is reactive transformation. You know, if the mission 
was transformation, I think as General Odierno said, and he 
should know better than just about anybody, the command 
provided a significant amount of utility when we were faced 
with modern insurgency or irregular warfare in terms of helping 
us begin to deal with that, react to that, and become very 
proficient at it.
    I think the area where we have consistently come up short 
is what I would call anticipatory transformation, getting out 
in front of the next problem. And I don't see necessarily how 
that is going to change, given what we have here in terms of 
the disestablishment of Joint Forces Command. It is not self-
evident to me that what we have got in its place is going to 
accomplish that mission.
    Mr. Forbes. Okay.
    Ms. Bordallo.
    Ms. Bordallo. Thank you.
    Thank you very much, Mr. Chairman.
    And my first question is for you, Dr. Krepinevich. I want 
to thank you for mentioning Guam. And just to let you know, and 
the rest of the world, that we are still afloat.
    To be clear, Doctor, China does not have a missile that can 
reach Guam yet, although it has been talked about. Is that 
correct?
    Dr. Krepinevich. I am not sure about the specific ranges. 
And of course, a number of those are classified in terms of 
what we get from our intelligence community.
    I do know that beginning in the mid-1990s, they focused 
intently in building missiles that could range Taiwan. And 
then, in my conversations with my Japanese colleagues in recent 
years, they said, well, they have moved beyond that; they have 
really begun to emphasize hitting us now with medium-range and 
intermediate-range ballistic missiles.
    I have had classified briefings that would suggest that the 
overall trend, I think I can say this, is toward increasing 
range, number one. It has been reported in the open literature 
that they are developing the DF-21, which is designed to be a 
maneuverable warhead to go after our carriers. And then, of 
course, you have the issue of their submarine fleet, which 
although it, in terms of technical capacity, isn't that great, 
you know, the potential for anti-ship cruise missiles and 
cruise missiles that could be used, especially if you get to 
shoot first in a conflict, you can at least expend those 
munitions. And then building certain capacity in terms of their 
air force and so on.
    So I would say that depending upon the contingency you are 
looking at right now, we are lesser or better able to prepare 
to deal with it. Based upon my understanding of what is in the 
open literature, open source literature right now, obviously 
the Taiwan situation is not as--we don't have as--it is a 
higher risk proposition.
    Ms. Bordallo. Right.
    Dr. Krepinevich. If you look at the way--if you look at two 
things, if you look at where we are basing our forces in Kadena 
and in Anderson, when I was a kid, I would watch these 
Westerns. And there was always some second lieutenant leading 
the wagon train, usually Ricky Nelson or Fabian or somebody, 
who wanted to take them through the canyon. And somebody like 
John Wayne would say, don't do it, that is where all the 
Indians are. In a sense, these big bases are the canyons. If 
they know you have got to go through there, if they know that 
is where you are going to be, you have given them an incredible 
incentive to target those. So, again, we see the Chinese moving 
exactly in that direction.
    In terms of investments, and I was very glad to see 
Secretary Gates make the announcement recently that they are 
going to move forward with the family of long-range strike 
systems, because up until now our investment ratio has been 
over 15 to 1 short range versus long range.
    Ms. Bordallo. That was one of the things, Doctor, I was 
going to talk to you, because further, when we talk anti-
access, shouldn't we view this through a prism of full-spectrum 
operations like the long-range strike?
    Dr. Krepinevich. Absolutely. Our center has developed our 
version of the air-sea battle concept. And since right now it 
is the only game in town, we have gotten a lot of visits both 
from the Chinese embassy and the Japanese embassy. And I was 
scheduled to meet with the chief of staff of the Japanese Air 
Force. Unfortunately, the earthquake precluded that.
    But the idea behind that is you have an integrated set of 
capabilities. And again, this is why exercises at the tactical 
level and training at the tactical level make sense. But unless 
you put it within an overall operational context of what you 
are trying do as part of a campaign, you know, you really are 
not capturing all you need to do.
    And so, for example, in our concept, we realized that, at 
least the way we look at the situation, number one, you know, 
things like range become very important; submarines become very 
important; anti-satellite capability becomes very important; 
cyber. We were able to sit down with the Japanese and say, 
look, we need your vote in the U.N.; we need your bases, but 
here is what we need in terms of your military capability. And 
we actually ended up doing planning exercises with the Japanese 
Government. And they are waiting--they are waiting for our Air 
Force and our Navy to publish air-sea battle. And they have 
been waiting since Secretary Gates gave them the directive over 
a year ago.
    Ms. Bordallo. Thank you, Doctor.
    Both the chairman and I have been through numerous 
briefings and CODELs [congressional delegations] over to China. 
And there is not much you can learn. They are very secretive. 
But I do know that they are developing missiles that----
    Dr. Krepinevich. Well, if you read their military 
publications, they are--first of all, they are very unambiguous 
that way. There are slogans like, and this is repetitive, you 
know, we need capabilities that will enable the inferior to 
defeat the superior. We are weak, but we are not weak in all 
things. The Americans are strong, but they are not strong in 
all things. We need to align Eastern wisdom and Western 
technology to defeat the Americans.
    If we were publishing stuff like this about the Chinese, 
there would be a great hoo-hah.
    Ms. Bordallo. There would probably be another war.
    Dr. Krepinevich. Quite frankly, the shift clearly is one to 
move the military balance in their favor. We used to have a 
term for it in the Cold War called Finlandization. You 
gradually shift the military balance to where your allies start 
to become detached from you because they lose confidence in 
you. And their big emphasis is on this anti-access/area denial 
capability and fracturing our battle networks.
    So one big question, in fact General Mattis and I, the 
predecessor to General Odierno, used to have this conversation 
about, okay, what happens--are we training sufficiently enough 
and rigorously enough and at the operational level in 
situations where we lose access to the battle network? And 
General Odierno and I were commissioned around the same time. 
Obviously, he has gone a little bit further than I did, but one 
of the things that would happen in a lot of field exercises was 
the evaluator would come and say, buddy, you just loss your 
coms [communications]. And you would have to figure out, okay, 
well, how do I operate effectively now?
    And those are the sorts of things that we need to be doing. 
And it is not just at the individual unit level; it is with a 
campaign perspective. And the talent is out there. And the 
frustration, at least for me individually, is why haven't we 
been able to harness this great talent, you know, the great 
professionalism of our military to begin to come up with at 
least some answers to these questions?
    Ms. Bordallo. Thank you, Doctor.
    I do have just one last question, Mr. Chairman, please bear 
with me, for the admiral, and possibly the general as well.
    I have heard nearly every combatant commander come and 
testify that they are trying to build a whole-of-government 
approach to their operations in their areas of responsibility. 
And some have mentioned strategic endeavors to foster broader 
public-private partnerships between the military and commercial 
industries.
    Now, my question for you is how does the Joint Staff foster 
this partnering ideology? And what is the Joint Staff doing to 
build broader inter-coordination among our forces around the 
world and our future allies or partners?
    And I could, Admiral, start with you.
    Admiral Gortney. If there is another lesson learned from 10 
years of combat, it is the whole-of-government approach and how 
much it is needed. It is a key tenet of what we want to do, 
what we want to continue to do, what we want to continue to 
train to. And one of the synergies of aligning Joint Force 
Development underneath the J7 for the chairman is that the 
interagency lives here in D.C., the exercise. We can exercise 
here in D.C. We have the conferences here in Washington, D.C. 
It really provides that opportunity to ensure that we do it 
right in the future.
    Ms. Bordallo. General.
    General Odierno. I don't want to go too long of an answer 
on this. But this is one that I think about and talk about 
quite often. We are watching it in front of our eyes today: The 
globalization, which is allowing many different communities to 
understand what is going on around the world very quickly, the 
change in populations, the change in power as we see it 
shifting in front of us requires us to engage along several 
different levels. We have learned over the last 10 years that 
sometimes there is a limit to military power, and you have to 
use many other capabilities in order to achieve your end states 
and your results.
    And I think what the combatant commanders are talking about 
is they must have the capabilities to go out there many 
different ways in coordination with our interagency partners, 
as well as make bilateral connections, mil-to-mil connections 
with all these different countries around the world, for us to 
understand, better understand the environment that we have to 
operate in and how we might solve problems in many different 
ways, just not always with our military power but in 
conjunction with our capabilities within our military.
    And I think that is one of the key components of our 
training of our young joint officers today is them 
understanding the environment around them and then able to 
think about these complex environments they are about ready to 
enter and how they can come up with the right solutions working 
across the broad spectrum.
    And I think as we continue to have budget issues and budget 
problems and potential reductions and other things, we have to 
come up with adaptive alternative ways to solve problems. And I 
think that is why they believe they have to continue to do 
this.
    So I think it is something we have to pay attention to. It 
is something we have to focus on as we move forward. You know, 
we talked about anti-access. You know, part of that is 
attacking that across many different ways, having a military 
capability to do it, but also, how do we gain access? You know, 
the global commons we used to always think of as air, land, and 
sea. It is now air, land, sea, space, I personally would add 
cyberspace. So how do we assure our own access to the global 
commons as we look forward around the world? And those are the 
issues that are very difficult. And that is why we have to 
attack it in many different new ways, ma'am.
    Ms. Bordallo. Well, I would say that the military buildup 
that is occurring right now on Guam, and of course, this is a 
partnership between Guam and Japan; this would be a shining 
example of how we are going to be able to go forward.
    Thank you, Mr. Chairman, very much.
    Mr. Forbes. General, any final comments you have or 
questions that we didn't ask that you wanted to get on the 
record?
    General Odierno. The only thing I would say is I want to 
again thank you for holding this hearing. I think it is a very 
important one. And the discussion we had is one that we have to 
constantly have as we look ahead to the future and how we are 
going to sustain ourselves in this very complex environment.
    So I just want to thank you, Mr. Chairman, for holding this 
committee meeting today.
    Mr. Forbes. Thank you, General. And thank you for being 
here today.
    Admiral, any final thoughts that you have?
    Admiral Gortney. Yes, sir. I just want to make sure there 
is no doubt in anybody's mind that through this process, we are 
not challenging or walking away from Goldwater-Nichols and the 
importance of Joint Force development. Remember that Goldwater-
Nichols predates JFCOM by 13 years. Instead, we are finding a 
better way to perform that joint oversight and ensuring joint 
readiness if the future.
    Mr. Forbes. Thank you, Admiral.
    Doctor, any final comments?
    Dr. Krepinevich. Just to thank you, Mr. Chairman, for the 
opportunity to be here and express my views today, and also to 
have the opportunity to publicly express my admiration and 
appreciation for, in particular, General Odierno and his great 
service to our country, but also to the admiral and the little 
army that he brought along today. Having served in the military 
once upon a time myself, I can't but imagine how challenging 
and how difficult it has been for these young men and women, 
and how remarkable a job they have done under these difficult 
circumstances.
    Thank you.
    Mr. Forbes. Thank you all for being with us. We appreciate 
your patience and your service to the country. We are 
adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 31, 2011
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 31, 2011

=======================================================================

      
                   Statement of Hon. J. Randy Forbes

                  Chairman, Subcommittee on Readiness

                               Hearing on

                 Improving the Readiness of U.S. Forces

                       Through Military Jointness

                             March 31, 2011

    I want to welcome all our members and our distinguished 
panel of experts to today's hearing that will focus on how we 
are progressing towards improvements in the readiness of our 
forces through military jointness. This topic is particularly 
relevant with the pending closure of the Joint Forces Command 
(JFCOM). Ironically the impetus for JFCOM was that landmark 
legislation on jointness, Goldwater-Nichols.
    Let me first take a step back in history. In a special 
message to Congress in 1958, President Dwight D. Eisenhower 
stated that ``Separate ground, sea and air warfare is gone 
forever. If ever again we should be involved in war, we will 
fight it in all elements, with all Services, as one single, 
concentrated effort.'' However, President Eisenhower's vision 
was not fully realized until the passage of Goldwater-Nichols 
in 1986.
    The operations in Iraq and Afghanistan have shown that the 
U.S. military indeed has made significant gains in joint 
operations, training and doctrine. However, there are still 
areas impacting the readiness of our forces that need to be 
addressed. We still must develop jointness in the way we 
communicate, procure our weapon systems, and in our logistics 
processes and information systems. That once would have been 
the ongoing role of JFCOM.
    In announcing the closure of JFCOM, Secretary Gates said 
the ``U.S. military has largely embraced jointness as a matter 
of culture and practice, although we must always remain 
vigilant against backsliding on this front.''
    In reality, it is my contention that we cannot simply focus 
on what we have achieved to date and try to avoid a 
``backslide.'' But rather we must continue to advance joint 
concepts in terms of doctrine, training and development of 
strategies and tactics since each scenario we face in the 
future will call for joint operations, but potentially 
differing responses. For example, the growing military power of 
China and its potential threat to the Asia-Pacific region would 
call for a different joint response from U.S. military forces, 
possibly more focused on an air-sea operation, than the current 
CENTCOM operations, which primarily are land-based.
    I would ask our witnesses their views on how we can be 
assured this forward look at jointness will happen without a 
body that has the authority to ``force'' that on the Services? 
The Joint Staff has played the role of principal military 
``advisor'' to our senior civilian leadership. Even if they 
develop the necessary concepts to further jointness, how will 
they be able to press the Services into compliance?
    In a recent speech at the Air Force Academy, Secretary 
Gates said, ``It's easier to be joint and talk joint when 
there's money to go around and a war to be won.'' He said, 
``It's much harder to do when tough choices have to be made 
within and between the military Services--between what is ideal 
from a particular Service perspective, and what will get the 
job done, taking into account broader priorities and 
considerations.'' I agree with Secretary Gates in this regard. 
Resistant bureaucracies exist within every part of the 
Executive Branch, and the Service departments within the 
Pentagon are no different.
    Another critical readiness factor, is that of the role of 
joint force provider. Jointness dictates that the Services 
operate within their core competencies and seek the expertise 
of the Service whose skills lie in a particular competency, 
including training. In the new construct, it is unclear who 
will take on this responsibility, but in order to truly promote 
jointness, it cannot be given to one particular military 
Service.
    Finally, the operations with our NATO allies pose another 
concern--an example of their importance to our security 
interests is being reinforced even as we sit here, with the 
operations over Libya, which the committee heard about this 
morning.
    JFCOM provided several venues in which U.S. and allied 
forces could interact. That dynamic cannot help but change. 
Indeed, French Air Force Gen. Stephane Abrial, supreme allied 
commander for transformation, in discussing the NATO role after 
the closure of JFCOM, told reporters that ACT has started 
looking at ``how we will re-plug into this much more 
distributed system.''
    Joining us today to discuss these issues are three 
distinguished individuals:

        <bullet> LGeneral Raymond Odierno, Commander, U.S. 
        Joint Forces Command. General Odierno most recently 
        served as commanding general for the Multi-National 
        Force--Iraq, working jointly with our allies. He also 
        has served in other senior joint positions in the 
        Pentagon. These assignments have more than prepared him 
        for ensuring that the military's focus remains on 
        jointness even as JFCOM is disestablished.

        <bullet> LVice Admiral William E. Gortney, Director, 
        Joint Staff. While primarily serving in senior Navy 
        commands throughout his career, Admiral Gortney has 
        stated that Goldwater-Nichols substantially helped his 
        career. Now as director of the joint staff Admiral 
        Gortney is uniquely positioned to reinforce his 
        personal commitment to jointness.

        <bullet> LDr. Andrew F. Krepinevich, President, Center 
        for Strategic and Budgetary Assessments. Dr. 
        Krepinevich is a well-known military expert and 
        currently serves on the Joint Forces Command's 
        Transformation Advisory Board. He has been involved 
        with JFCOM since its beginning.

    Gentlemen, thank you all for being here.

                              STATEMENT OF

                 GENERAL RAYMOND T. ODIERNO, U.S. ARMY

                               COMMANDER

                   UNITED STATES JOINT FORCES COMMAND

                 IMPROVING THE READINESS OF U.S. FORCES

                       THROUGH MILITARY JOINTNESS

                      HASC READINESS SUBCOMMITTEE

                             MARCH 31, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 31, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. If similar functions to JFCOM exist within the Joint 
Chiefs of Staff and other organizations, was there any consideration 
given to consolidating those functions at JFCOM, rather than 
disestablishing JFCOM? For those functions that will continue, what 
process is DOD using to determine which function and where or by whom 
it should be performed?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. Allied Command Transformation (ACT) and NATO have built 
strong ties to JFCOM in areas of training, capability development, 
experimentation, and coalition forces integration.
        <bullet>  How will this progress be sustained and which U.S. 
        commander and staff will assume counterpart responsibilities to 
        ACT's NATO four-star commander?
        <bullet>  What is your plan to ensure that our allies have 
        access to joint operability doctrine without a combatant 
        command to coordinate and lead them?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. In the long term, DOD should right-size its forces structure to 
ensure that taskings for CENTCOM are filled with the best qualified 
individual for the task and not a surrogate from a different Service 
with different core competencies--a function that JFCOM was well 
positioned to address since it played a vital role in the improving the 
processes for assignments and development of training standards for 
these taskings.
        <bullet>  With the JFCOM disestablishment, how will DOD ensure 
        that policies, procedures and training for these cross-service 
        taskings don't fall through the cracks again?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. Secretary Gates, in announcing the closure of JFCOM, 
stated that it was not needed because jointness was part of today's 
military culture. In reality we must continue to advance the concept of 
military jointness.
        <bullet>  However, without a body that has the authority to 
        ``force'' that on the services, how can we be assured this will 
        actually happen?
        <bullet>  How do we ensue that the services pay more than 
        simple lip service to jointness?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. Does Title 10, United States Code, prevent the CJCS 
from executing certain functions currently being done by JFCOM in 
support of the COCOMs?
        <bullet>  Which commander will be assigned the missions 
        specifically assigned to JFCOM in the Unified Command Plan in 
        accordance with the Goldwater-Nichols Act?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. The tension between joint needs and service-centric 
processes has led some functions, such as special forces and missile 
defense, to migrate to department-wide entities.
        <bullet>  Is there an authoritative process for defining near- 
        and long-term joint capability needs?
        <bullet>  If so, who is, or should be, responsible for managing 
        that and for validating those requirements?
    General Odierno. [The information was not available at the time of 
printing.]
    Mr. Forbes. With the disestablishment of JFCOM, who should be 
assigned the responsibility of joint force provider? If it were 
assigned to the JCS, is there adequate legal or statutory authority to 
do so?
    General Odierno. [The information was not available at the time of 
printing.]

    Mr. Forbes. If similar functions to JFCOM exist within the Joint 
Chiefs of Staff and other organizations, was there any consideration 
given to consolidating those functions at JFCOM, rather than 
disestablishing JFCOM? For those functions that will continue, what 
process is DOD using to determine which function and where or by whom 
it should be performed?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. Allied Command Transformation (ACT) and NATO have built 
strong ties to JFCOM in areas of training, capability development, 
experimentation, and coalition forces integration.
        <bullet>  How will this progress be sustained and which U.S. 
        commander and staff will assume counterpart responsibilities to 
        ACT's NATO four-star commander?
        <bullet>  What is your plan to ensure that our allies have 
        access to joint operability doctrine without a combatant 
        command to coordinate and lead them?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. We have become heavily reliant on the Navy and Air 
Force to provide individual augmentees to meet ground force 
requirements in CENTCOM. When this practice started several years ago 
it was supposed to be a ``temporary fix'' to the imbalance in the 
force. In the long term, DOD should right-size its forces structure to 
ensure that taskings for CENTCOM are filled with the best qualified 
individual for the task and not a surrogate from a different service 
with different core competencies--a function that JFCOM was well 
positioned to address since it played a vital role in the improving the 
processes for assignments and development of training standards for 
these taskings.
        <bullet>  With the JFCOM disestablishment, how will DOD ensure 
        that policies, procedures and training for these cross-service 
        taskings don't fall through the cracks again?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. Secretary Gates, in announcing the closure of JFCOM, 
stated that it was not needed because jointness was part of today's 
military culture. In reality we must continue to advance the concept of 
military jointness.
        <bullet>  However, without a body that has the authority to 
        ``force'' that on the services, how can we be assured this will 
        actually happen?
        <bullet>  How do we ensue that the services pay more than 
        simple lip service to jointness?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. Does Title 10, United States Code, prevent the CJCS 
from executing certain functions currently being done by JFCOM in 
support of the COCOMs?
        <bullet>  Which commander will be assigned the missions 
        specifically assigned to JFCOM in the Unified Command Plan in 
        accordance with the Goldwater-Nichols Act?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. The tension between joint needs and service-centric 
processes has led some functions, such as special forces and missile 
defense, to migrate to department-wide entities.
        <bullet>  Is there an authoritative process for defining near- 
        and long-term joint capability needs?
        <bullet>  If so, who is, or should be, responsible for managing 
        that and for validating those requirements?
    Admiral Gortney. [The information was not available at the time of 
printing.]
    Mr. Forbes. With the disestablishment of JFCOM, who should be 
assigned the responsibility of joint force provider? If it were 
assigned to the JCS, is there adequate legal or statutory authority to 
do so?
    Admiral Gortney. [The information was not available at the time of 
printing.]

    Mr. Forbes. Secretary Gates, in announcing the closure of JFCOM, 
stated that it was not needed because jointness was part of today's 
military culture. In reality we must continue to advance the concept of 
military jointness.
        <bullet>  However, without a body that has the authority to 
        ``force'' that on the services, how can we be assured this will 
        actually happen?
        <bullet>  How do we ensue that the services pay more than 
        simple lip service to jointness?
    Dr. Krepinevich. [The information was not available at the time of 
printing.]
    Mr. Forbes. Does Title 10, United States Code, prevent the CJCS 
from executing certain functions currently being done by JFCOM in 
support of the COCOMs?
        <bullet>  Which commander will be assigned the missions 
        specifically assigned to JFCOM in the Unified Command Plan in 
        accordance with the Goldwater-Nichols Act?
    Dr. Krepinevich. [The information was not available at the time of 
printing.]
    Mr. Forbes. The tension between joint needs and service-centric 
processes has led some functions, such as special forces and missile 
defense, to migrate to department-wide entities.
        <bullet>  Is there an authoritative process for defining near- 
        and long-term joint capability needs?
        <bullet>  If so, who is, or should be, responsible for managing 
        that and for validating those requirements?
    Dr. Krepinevich. [The information was not available at the time of 
printing.]
    Mr. Forbes. With the disestablishment of JFCOM, who should be 
assigned the responsibility of joint force provider? If it were 
assigned to the JCS, is there adequate legal or statutory authority to 
do so?
    Dr. Krepinevich. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
